                                                      U.S. Department of Housing and Urban Development
                                                                         Wanamaker Building, Suite 1005
                                                                                   100 Penn Square East
                                                                            Philadelphia, PA 19107-3380

                                                                      Regional Inspector General for Audit




                                                                          Audit Memorandum
                                                                          Number 2009-PH-0801

June 19, 2009

MEMORANDUM FOR:                 Carol J. Galante, Deputy Assistant Secretary for Multifamily
                                 Housing Programs, HT

FROM:                           John P. Buck, Regional Inspector General for Audit, Philadelphia
                                 Region, 3AGA

SUBJECT:                        Corrective Action Verification Review
                                Upfront Grant for Ridgecrest Heights Apartments
                                CEMI-Ridgecrest, Inc.
                                Washington, DC
                                Audit Memorandum 98-AO-219-1804


                                          INTRODUCTION

We completed a corrective action verification review on the subject audit memorandum as a
result of allegations made in a December 2008 Washington Post news article. Among other
things, the article alleged that a developer, H.R. Crawford, former president of CEMI-Ridgecrest,
Inc. (grantee), failed to repay the U.S. Department of Housing and Urban Development (HUD)
proceeds gained from the sale of townhomes located at Ridgecrest Heights Apartments as
required by the upfront grant agreement. Since we had previously made a recommendation
addressing this matter in a prior audit (Audit Memorandum 98-AO-219-1804; September 24,
1998) we determined it was necessary to evaluate whether HUD had adequately implemented the
recommendation. As such, the objective of this corrective action verification review was to
determine if HUD ensured the repayment of excess proceeds from the sale of townhomes located
at Ridgecrest Heights Apartments. We plan to review other allegations discussed in the news
article on future audits as appropriate.

                                 METHODOLOGY AND SCOPE

In performing our review, we reviewed HUD program files, related correspondence, and
documentation pertaining to the upfront grant agreement, the audit memorandum and HUD’s
management decision and applicable follow-up actions. We interviewed HUD’s Director of
Asset Management and her staff, responsible officials from the Philadelphia Office of
Multifamily Housing Programs, the Atlanta Office of Multifamily Housing, the District of
Columbia’s Office of Community Planning and Development, and HUD’s Office of Public

      Visit the Office of Inspector General’ s World Wide Web site at http://www.hud.gov/offices/oig/
Affairs. The previous audit memorandum included six recommendations. Due to the specific
allegation in the news article, we focused this corrective action verification review on one
recommendation. This recommendation was for HUD to establish and monitor a mechanism to
ensure the repayment to HUD of approximately $10 million from the sale of the townhomes.
Our review covered the period November 1996 through January 2004.

                                       BACKGROUND

Upfront Grant for Ridgecrest Heights Apartments

Ridgecrest Heights Apartments (also known as Walter E. Washington Estates) was a 331 unit
apartment complex located at 800-843 Bellevue Street, S.E., Washington, DC, that was acquired
by HUD though a foreclosure sale in October 1995. The Ridgecrest Heights Tenants
Cooperative Association, representing over 51 percent of the tenants who wanted to redevelop
the property, consulted with Mr. H.R. Crawford, a developer and property manager and President
of Crawford Edgewood Managers, Inc., (CEMI) to propose a plan to acquire the apartments and
redevelop the site into new townhomes. In September 1996 HUD sold the property for $1 to
CEMI and the Ridgecrest Heights Tenants Cooperative Association with the agreement that both
groups form a joint nonprofit corporation named CEMI-Ridgecrest, Inc., to facilitate the
redevelopment effort. In addition, tenants who decided not to participate in purchasing a
townhome were provided Section 8 vouchers or certificates and were relocated. Mr. Crawford
also arranged with the District of Columbia Housing Finance Agency for a 5-year tax relief for
families who purchase units in the new development and to provide housing purchasing
assistance.

In conjunction with the property sale, the HUD District of Columbia Office approved an upfront
grant for $24.5 million to fund the Ridgecrest redevelopment. The upfront grant agreement was
signed in November 1996. The grant included requirements for the construction of a job skills
training center and day care facility, the renovation of a community center, and the demolition
and redevelopment of the property into 141 townhomes for mixed income families. In addition,
the grant specified that 30 units would be available for qualifying low-income families returning
to purchase the new Ridgecrest development townhomes. The grant agreement also provided
that a housing trust fund be established in the amount of $1.9 million to assist the new
homeowners association in the operation of the Ridgecrest development for a period of 10 years.
The trust fund was to be created from the proceeds of the initial townhome sales. After the trust
fund corpus was established, the proceeds from the townhome sales were to be repaid to HUD.
The trust fund also was to revert to HUD after the 10-year period expired.

Audit Memorandum 98-AO-219-1804

The objective of Audit Memorandum 98-AO-219-1804 was to determine whether HUD followed
established guidelines in awarding a $24.5 million upfront grant to a non-profit organization,
CEMI-Ridgecrest, Inc. In this prior memorandum we concluded that HUD had not established a
mechanism to create and monitor the trust fund, had not established repayment procedures after
the trust fund period was completed, and had not established procedures for the remittance of the
townhome sales proceeds. The audit memorandum also noted that HUD needed to be more


                                                2
involved in the monitoring of this process to ensure the viability and financial commitments of
the project were met. The audit memorandum recommended that HUD establish and monitor a
mechanism to ensure the repayment to HUD of approximately $10 million from the sale of the
townhomes. The $10 million estimate was derived from the grantees’ initial sources and uses of
funds budget.

Prior Audit Closed Out

In a memorandum dated July 19, 2000, requesting close-out of Audit Memorandum 98-AO-219-
1804, HUD stated that the revised amount available to repay HUD was between $500,000 and $l
million. The reason the grantee cited for the reduction in the estimated repayment amount was
that an anticipated grant in the amount of $3.6 million from the District of Columbia
Development Zone Administration never materialized, and it incurred significant unanticipated
development costs. HUD stated that the ultimate figure to be returned to HUD would not be
known until the remaining units were completed and an audit completed by a certified public
accountant would clearly state all audit findings and exceptions.

HUD stated in its audit closeout memorandum that the grantee had been submitting quarterly
reports to the Atlanta Multifamily Property Disposition Center and the District of Columbia
HUD Office which showed (1) sales proceeds from the sale of the townhouse units, (2) funds
transferred to the trust account, (3) all costs incurred by construction phase, and (4) the balance
in the sales account. As such, HUD proposed that quarterly reports, coupled with an audit by a
certified public accountant would satisfy the recommendation and that the finding should be
closed out. Based on these proposed monitoring procedures, we agreed to close out the audit
recommendation on November 22, 2000.

Certified Public Accountant’s Report Submitted to HUD

HUD did in fact receive the required certified public accountant’s report in May 2004. Based on
the figures in the report which showed final project costs and sources of funds, we calculated that
at least $780,326 is due to HUD, subject to additional verification1:

                      Final Project Costs (A)                         $39,158,266
                       Sources of Funds
                        1996 Upfront Grant Agreement                  $24,590,561
                         Sales Proceeds                               $15,135,960
                        Net Incidental Rental Income                     $212,071
                      Total Sources of Funds (B)                      $39,938,592
                      Excess Proceeds Due to HUD (B-A)                   $780,326

                                         RESULTS OF REVIEW

HUD failed to adequately follow the procedures it agreed to in its close-out memorandum with
the Office of Inspector General. Since HUD did not ensure the grantee submitted required
1
 See Appendix C – Independent Auditor’s Schedule of Costs which shows final project costs, sales proceeds, and
net incidental rental income.

                                                       3
quarterly reports to ensure repayment of sales proceeds we used the schedule of costs contained
in the certified public accountant’s report and estimated a preliminary amount of excess sales
proceeds due to HUD to be $780,326. However, HUD needs to verify the amount of sales
proceeds and determine whether any funds remain in the project’s trust fund, and then ensure
those funds are returned to HUD as required by the grant agreement.

Required Quarterly Reports Were Not Always Submitted to HUD

HUD did not ensure the grantee submitted all quarterly reports as it agreed in its memorandum to
the Office of Inspector General requesting close-out of the audit recommendation. We found
that over a three-year period (1999 to 2001), HUD received only five quarterly reports. The
reports were needed for HUD monitoring to show (1) the sales proceeds from the sale of the
townhouse units, (2) funds transferred to the trust account, (3) all costs incurred in the
construction phase, and (4) the balance in the sales account. Construction at Ridgecrest Heights
Apartments, consisting of 141 townhomes, was completed on December 20, 2001. HUD did not
receive any quarterly reports after April 3, 2001. Since these reports were needed for the 42
townhomes under construction as of April 3, 2001, HUD did not ensure that the grantee repaid
all sales proceeds as required in the grant agreement. Additionally, three of the five quarterly
reports that were submitted to HUD failed to show the construction costs incurred.

Sales Proceeds Should Be Verified and Excess Proceeds Should Be Returned to HUD

As discussed above, the grant agreement required that a housing trust fund be established in the
amount of $1.9 million to assist the new homeowners association in the operation of the
Ridgecrest development for a period of 10 years. The trust fund was to be created from the
proceeds of the initial townhome sales. After the trust fund corpus was established, the proceeds
from the townhome sales were to be repaid to HUD. The trust fund also was to revert to HUD
after the 10-year period expired. 2

Due to cost overruns reportedly associated with the project, the grantee requested that HUD
permit it to borrow funds from a local financial institution of up to $10 million and use the
excess sales proceeds for repayment of the funds borrowed. In a letter dated November 25,
1998, the Director of Chesapeake Multifamily hub granted approval for the grantee to use $8.5
million to repay the borrowed funds. Based on a revised development budget the grantee
submitted, HUD’s Director of the Atlanta Multifamily Property Disposition Center increased this
amount to $10 million of sales proceeds that the grantee could use to repay the borrowed funds
(in an undated follow-on letter). In addition, the certified public accountant’s report showed the
grantee did in fact fund the required housing trust fund in the required amount of $1.9 million to
assist the new homeowners association in the operation of the Ridgecrest development.
Therefore, at a minimum $11.9 million ($10 million + $1.9 million) in sales proceeds would not
be required to be returned to HUD at the end of construction. Since the sales proceeds reported
by the certified public accountant were $15.1 million we calculated that $3.2 million ($15.1
million minus $11.9 million) could potentially be required to be returned to HUD. However, the
certified public accountant did not give any explicit assurances with respect to the sales proceeds

2
  Redevelopment of the townhomes was completed in May 2003; thus the 10-year expiration date for the trust fund
is May 2013.

                                                       4
nor did it indicate whether all of the units had been sold. The purpose of the certified public
accountant’s report was to account for the actual costs of development of Walter E. Washington
Estates. Therefore, since all of the quarterly monitoring reports were not submitted to HUD as
required, HUD should verify the amount of sales proceeds, and then ensure any excess proceeds
are returned to HUD as required by the grant agreement. In addition, when the 10-year trust
period ends, HUD should ensure any remaining trust funds be returned as required by the grant
agreement.

                                   RECOMMENDATION

Based on the results of our review, we will reopen and revise the recommendation from Audit
Memorandum 98-AO-219-1804 as follows:

We recommend that HUD’s Deputy Assistant Secretary for Multifamily Housing Programs

       verify the final amount of the sales proceeds, determine if any amounts should be
       returned to HUD, and ensure such amounts are repaid to HUD under the terms of the
       grant agreement.

       after 10 years from the date of final development has expired, determine whether any
       funds remain in the project’s trust fund, and ensure such amounts are repaid to HUD
       under the terms of the grant agreement.

                                     AUDITEE’S RESPONSE

We discussed our results with HUD officials during the review. We provided a copy of the draft
memorandum to HUD on May 20, 2009, for its comments and discussed the memorandum with
HUD officials at the exit conference on May 27, 2009. HUD generally agreed with our
recommendation but disagreed with some aspects of this review. The complete text of HUD’s
response, along with our evaluation of that response, is included in appendix B of this
memorandum.

For a recommendation without a management decision, please respond and provide status reports
in accordance with HUD Handbook 2000.06, REV-3. Please furnish us copies of any
correspondence or directives issued because of the review.




                                               5
                                   APPENDIXES
Appendix A

                 SCHEDULE OF QUESTIONED COSTS


                             Recommendation
                                 number            Ineligible 1/

                                    1A              $780,326


1/   Ineligible costs are costs that are questioned because of an alleged violation of a
     provision of a law, regulation, contract, grant, cooperative agreement, or other agreement
     or document governing the expenditure of funds. The amount shown above is an
     estimate for tracking purposes only. Since HUD did not ensure the grantee submitted
     required quarterly reports to ensure repayment of sales proceeds, we used the schedule of
     costs contained in the certified public accountant’s report and estimated amounts due to
     HUD. However, this calculation was based solely on available information, and may not
     reflect the final sales proceeds and trust funds due to HUD. Once HUD verifies this
     information, it can then determine the exact amount that the grantee should return.




                                             6
Appendix B

      AUDITEE’S RESPONSE AND OIG’S EVALUATION

Ref to OIG Evaluation    Auditee Comments




Comment 1

                            C




Comment 2

Comment 3



                        Comment 1




                            7
Comment 4




Comment 5



            Comment 1




                8
+




9
                         OIG Evaluation of Auditee Comments

Comment 1   We discussed our draft audit memorandum and our proposed recommendations
            with responsible HUD officials at our exit conference held on May 27, 2009, and
            made adjustments to the memorandum as appropriate.
Comment 2   The financial information contained in the certified public accountant’s report was
            required to be submitted by the terms of the grant agreement and will not cause
            substantial harm to the grantee’s competitive position, therefore it is not
            prohibited from disclosure by the Trade Secrets Act or exemption 4 of the
            Freedom of Information Act.

Comment 3   As stated in the report, since HUD did not ensure the grantee submitted required
            quarterly reports to ensure repayment of sales proceeds, we used the schedule of
            costs contained in the certified public accountant’s report and estimated amounts
            due to HUD. This calculation was based solely on available information, and
            may not reflect the final sales proceeds and trust funds due to HUD. Once HUD
            verifies this information, it can then determine the exact amount that the grantee
            should return.

Comment 4   HUD has now informed us that it placed reliance on the draw request process
            instead of the quarterly reports as it agreed to in its memorandum to the Office of
            the Inspector General requesting closure of the original audit recommendation.
            However, HUD did not provide any documentation to support this assertion.
            Further, although the draw request process would in fact show costs incurred in
            the construction phase it would not show (1) the sales proceeds from the sale of
            the townhouse units, (2) funds transferred to the trust account, and (3) the balance
            in the sales account. As such, HUD failed to meet the intent of the original
            recommendation which was to ensure the repayment to HUD of the proceeds
            from the sale of the townhomes.

Comment 5   We discussed our proposed recommendations with responsible HUD officials at
            our exit conference held on May 27, 2009, and made adjustments as appropriate.
            Provided HUD verifies the final sales proceeds, its proposed course of action
            appears to meet the intent of the recommendations.




                                             10
Appendix C

     INDEPENDENT AUDITOR’S SCHEDULE OF COSTS




                       11
